February 2005
Report No. 05-007


Management Controls Over the
Re-baselined New Financial
Environment Project




             AUDIT REPORT
                                                                                             Report No. 05-007
                                                                                                February 2005


                                   Management Controls Over the Re-baselined New
                                   Financial Environment Project
                                   Results of Audit
Purpose of Audit
                                   The FDIC has established and implemented adequate management controls
The New Financial                  for the re-baselined NFE project. The FDIC has adopted project
Environment (NFE) project          management best practices such as senior-management-level sponsorship
is a major corporate initiative    and oversight and has conducted software quality assurance testing. Also,
to enhance the FDIC's ability
                                   the FDIC is devoting considerable time and effort to manage the project,
to meet current and future
financial management and
                                   using status reports and frequent coordination meetings to track progress
information needs. In 2001,        and discuss project issues.
the FDIC's Board of
Directors approved the             However, project planning for NFE system implementation did not
business case for NFE with a       adequately cover post-installation activities as recommended by federal
total estimated project cost of    guidance. Specifically, the transition and data conversion plans and design
$40.7 million. In June 2004,       documents do not provide policies and procedures or assignments of
the Board approved the             responsibility and accountability to ensure that post-installation tasks such
business case to re-baseline       as verifying data integrity, handling final disposition of the legacy system
the NFE project with               data, and monitoring of the first reporting cycle are adequately performed.
additional funding of $18
                                   The lack of planning for these activities limits the FDIC’s preparedness for
million.
                                   resolving problems and abnormalities that could affect reliability and
DOF management indicated           availability of the operational NFE system.
that the NFE core financial
system is scheduled for            Recommendation and Management Response
implementation by June 30,
2005, that is, functionality for   We recommended that the FDIC develop a plan or modify existing plans
accounts payable, accounts         for NFE system implementation to address post-installation tasks and
receivable, general ledger,        related controls, including policies, procedures, and assignments of
budget, procurement,               responsibility and accountability.
treasury management,
projects, asset management,        FDIC management agreed with the recommendation and will expand NFE
and reporting and portions of
                                   project planning to further address post-installation tasks and related
the cost management
modules.                           controls.

The objective of this audit
was to determine whether the       Federally Recommended Post-installation Activities
FDIC has established
adequate management
control over the re-baselined      Archiving master and transaction files
NFE project.                       Archiving or warehousing closed account data
                                   Confirming that converted data are functioning as designed
                                   Performing post-conversion data clean-up
                                   Assessing abnormalities that may appear
                                   Reviewing how manual entries were handled
                                   Verifying that edits function as designed
To view the full report, go to
www.fdicig.gov/2005reports.asp
                              TABLE OF CONTENTS

BACKGROUND                                           1

      Re-baselining of the NFE Project               2
      Project Guidance                               2
      Planning for NFE System Implementation         3

RESULTS OF AUDIT                                     4

POST-INSTALLATION PLANNING FOR NFE SYSTEM            4
IMPLEMENTATION

      Guidance Related to Post-Installation Tasks    4
      Recommendation                                 7

CORPORATION COMMENTS AND OIG EVALUATION             7

APPENDIX I: OBJECTIVE, SCOPE, AND METHODOLOGY        8
APPENDIX II: PROJECT MANAGEMENT CONTROLS            10
APPENDIX III: CORPORATION COMMENTS                  11
APPENDIX IV: MANAGEMENT RESPONSE TO THE             12
RECOMMENDATION

TABLE
Post-installation Tasks and Related Controls        5
Federal Deposit Insurance Corporation                                                                    Office of Audits
                                                                                            Office of Inspector General
801 17th Street NW, Washington, DC 20434


DATE:                                      February 18, 2005

MEMORANDUM TO:                             Fred S. Selby
                                           Director, Division of Finance


FROM:                                      Russell A. Rau [Electronically produced version; original signed by Russell Rau]
                                           Assistant Inspector General for Audits

SUBJECT:                                   Management Controls Over the Re-baselined
                                           New Financial Environment Project
                                           (Report No. 05-007)


This report presents the results of our audit of the management controls over the re-baselined New
Financial Environment (NFE) project. This audit is the third1 in a series of reviews, as detailed in
Appendix I, that we intend to conduct at critical milestones or decision points during the
development and implementation of the Federal Deposit Insurance Corporation’s (FDIC) NFE.

The objective of this audit was to determine whether the FDIC has established adequate
management control over the re-baselined NFE project. Appendix I describes in detail our
objective, scope, and methodology.

BACKGROUND

The NFE project is a major corporate initiative to enhance the FDIC's ability to meet current and
future financial management and information needs. The Director, Division of Finance (DOF), is
the project’s sponsor, and DOF is the lead division for NFE project management. The project
involves implementing a new commercial-off-the-shelf software package to replace the FDIC's
current financial systems.2 The project also involves extensive re-engineering of the FDIC’s
business practices and integration of legacy systems and other systems under development. The
FDIC considers the re-engineering of its business practices to be a critical factor in achieving the
expected benefits of the NFE in terms of streamlining business processes and avoiding the high
maintenance costs associated with software customization.

1
  Audit Report No. 03-016, The New Financial Environment Project Control Framework, dated March 5, 2003, and
Audit Report No. 03-045, New Financial Environment Scope Management Controls, issued September 29, 2003.
2
  The current systems are based on the Walker Interactive Systems, Inc., Tamris software products.
On December 10, 2001, the FDIC's Board of Directors approved the business case for NFE with a
total estimated project cost of $40.7 million.3 The FDIC executed a multi-year contract with
Accenture, LLP (Accenture)4 in October 2002 to replace its financial systems with PeopleSoft®
financial management software.5 The FDIC had planned to implement the core financial system on
July 1, 2004. DOF management indicated that the NFE system functionality would include
accounts payable, accounts receivable, general ledger, budget, procurement, treasury management,
projects, asset management, reporting, and portions of the cost management modules. The
enhanced cost management functionality was scheduled for implementation in 2005.
Re-baselining of the NFE Project
On June 28, 2004, the Board of Directors approved the business case to re-baseline the NFE project.
The re-baselined case established new project implementation milestones and provided additional
project funding to complete the initiative. Under the revised schedule, the NFE system will be
implemented in three components. The core financial system is scheduled for implementation by
June 30, 2005. The Budget Formulation/Receivership Service Billing/Enterprise Warehouse
component and the cost management component are planned for implementation by September 30,
2005. The Board of Directors approved $18 million in additional funding to support the project
costs associated with evaluation of the new system and changing business processes, renovation of
legacy systems, new security and quality assurance mandates, and a contingency fund. As part of
the re-baselining effort, 35 of the original 753 NFE requirements were deleted from the
implementation scope. According to the re-baseline case, these 35 requirements were introducing
functionality deemed to be of low value or not a priority of the impacted business area.
Project Guidance
To determine whether the FDIC had established management controls for developing a federal
financial system, we used appropriate documents published by the Joint Financial Management
Improvement Program (JFMIP). The JFMIP is a joint and cooperative undertaking of the U.S.
Department of the Treasury, Government Accountability Office, Office of Management and
Budget, and Office of Personnel Management, working in cooperation with each other and other
agencies to improve financial management practices in government. We also used A Guide to the
Project Management Body of Knowledge (PMBOK® Guide) published by the Project Management
Institute (PMI).6 Although the FDIC is not required to comply with the JFMIP guidance or the
PMBOK® Guide, we used both as criteria in performing the audit because they contain sound and
prudent practices for developing financial systems.




3
  When the Board case was approved, the FDIC estimated the development cost of the NFE, including FDIC staff time,
at $40.7 million.
4
  Accenture is a global management consulting and technology services company with more than 80,000 people in
47 countries.
5
  PeopleSoft® produces the financial management software.
6
  PMI was established in 1969 as a not-for-profit project management professional association. PMI has over 95,000
members in 125 countries worldwide.


                                                        2
Planning for NFE System Implementation

The implementation of the NFE system affects many systems throughout the FDIC. Therefore, the
deployment of the system will, in varying degrees, involve users from each division of the
Corporation. The NFE project team has begun coordinating the transition activities with the
business owners. These activities include understanding and documenting re-engineered business
processes and preparing for data conversion.

To prepare for NFE implementation, Accenture has developed a Transition Plan and a Data
Conversion Approach and Plan, which contain numerous interdependent tasks that must be
performed for NFE system deployment. Some of these tasks include completing user procedures
for the 23 key business operations, ensuring data integrity for 35 retiring systems and 23 interfacing
systems, and conducting user acceptance testing for the core financial system. The Transition Plan
defines the overall framework for the transition to the NFE. The plan lists the transition activities;
stakeholder responsibilities; communication methods for stakeholders; NFE and other FDIC system
interfaces; and the management, control, and reporting mechanisms for transition progress. The
Data Conversion Approach and Plan presents the methodology for the conversion of data from the
legacy systems to the PeopleSoft® applications. Although this plan is general in nature, more
detailed design documents7 for application-specific data conversions have been prepared.

The plans and design documents described above also defined activities for pre-conversion and
cutover phases of data and system conversion. Pre-conversion activities include tasks prior to and
leading up to the conversion, such as determining the scope and approach or method, developing the
conversion plan, performing data clean-up and validation, ensuring data integrity, and conducting
necessary analysis and testing. Cutover tasks to convert the legacy data to the new system include
testing system process and data edits; testing system interfaces, both incoming and outgoing;
managing the critical path of system implementation; supervising workload completion; and
performing reconciliation.

Accenture is also developing and testing the Budgeting, Receivership Billing, Enterprise
Warehouse, and cost management components for NFE. The modules will be deployed during the
third quarter of 2005.




7
 There are four such data conversion design documents: General Ledger, Purchase Order, Vendor, and Asset
Management.


                                                        3
RESULTS OF AUDIT

The FDIC has established and implemented adequate management controls for the re-baselined
NFE project. The FDIC has adopted project management best practices such as senior-
management-level sponsorship and oversight and has conducted software quality assurance testing.
Also, the FDIC is devoting considerable time and effort to manage the project, using status reports
and frequent coordination meetings to track progress and discuss project issues. Appendix II
identifies the various controls and activities that compose the project control framework. However,
project planning for NFE system implementation did not cover post-installation activities. The lack
of planning for these activities limits the FDIC’s preparedness for resolving problems and
abnormalities that could affect reliability and availability of the operational NFE system.

POST-INSTALLATION PLANNING FOR NFE SYSTEM IMPLEMENTATION

Post-installation activities as recommended in JFMIP guidance have not been adequately addressed.
Specifically, the transition and data conversion plans and design documents do not provide policies
and procedures or assignments of responsibility and accountability to ensure that post-installation
tasks such as verifying data integrity, handling final disposition of the legacy system data, and
monitoring of the first reporting cycle8 are adequately performed. Without adequately planning for
these activities, the FDIC risks not being prepared to promptly resolve problems or abnormalities
that could occur after system implementation. Therefore, the reliability and availability of the NFE
system to support the FDIC’s financial operations could be adversely affected.

Guidance Related to Post-installation Tasks

According to the JFMIP White Paper, Financial Systems Data Conversion Considerations, dated
December 2002, post-installation tasks are as important as any of the other conversion tasks
included in the pre-conversion and cutover phases. After data conversion, the user is faced with a
new system that may have new data input and edit requirements. There may also be changes in the
business rules and processing methods. Therefore, users may need detailed guidance until they
become familiar with all of the changes in data input, edit routines, and required adjustments. The
JFMIP White Paper identifies the following post-installation tasks:

•   Archiving master and transaction files
•   Archiving or warehousing closed account data
•   Confirming that converted data are functioning as designed
•   Performing post-conversion data clean-up
•   Assessing abnormalities that may appear
•   Reviewing how manual entries were handled
•   Verifying that edits function as designed


8
  The first reporting cycle includes the activities defined under the financial management information process flow as
required by JFMIP-SR-01-04, Framework for Federal Financial Management Systems. The reporting cycle includes
the reporting of financial management and program management information.


                                                           4
Each of the post-installation tasks and related controls are described in detail in the table below.

Post-installation Tasks and Related Controls
 Task                       Task Description and Related Control
 Archiving master and       Description: In data conversion, archiving of master and
 transaction files          transaction files requires the identification of the files for
                            financial transactions such as the general ledger (account
                            balances) and subsidiary ledgers (detail) from the legacy
                            system(s) that will be converted to the new system. As data are
                            converted into the new system, the files for legacy transactions
                            are processed and stored in a secure medium and retained in
                            accordance with FDIC and federal records policies.

                              Control: If the legacy system is to remain in production,
                              established controls should prevent processing of transactions
                              into the wrong system.

 Archiving or                 Description: Financial systems will have account transaction
 warehousing closed           data that are closed, and no further transactions would be
 account data                 processed against the account.

                              Control: Closed transaction data need to be processed for
                              storage and retained in accordance with FDIC and federal
                              records policies on a secure medium that is accessible as needed
                              for historical referencing.

 Confirming that              Description: Data are converted from the legacy system to the
 converted data are           new system.
 functioning as designed
                              Control: Post-installation procedures should include data
                              validation in the new system to ensure that the converted data are
                              complete and accurate and are processed according to set
                              business rules.

 Performing post-             Description: Data clean-up is necessary to ensure that data
 conversion data clean-up     conform to business rules and processes and are consistent and
                              complete. Data clean-up is much easier to perform prior to
                              deployment of the new system than after. However any of the
                              following instances would constitute a need for data clean-up:
                              erroneous and duplicative data, inactive transactions that should
                              have been closed, open transactions with error conditions,
                              suspended transactions, and other undesirable conditions.

                              Control: Data clean-up should occur before, during, and after
                              data conversion.




                                                   5
Assessing abnormalities   As part of the post-installation activities and into the first
that may appear           reporting cycle, abnormalities in transaction processing and
                          reporting may occur. Both computer and financial systems
                          analysts need to assess these abnormalities for cause, effect, and
                          resolution.

                          Control: Changes made to correct problems should be
                          controlled through a change management process.

Reviewing how manual      Description: Manual entries are those entries that are not
entries were handled      automatically processed by the system but require human
                          intervention to ensure that the financial information is recorded
                          in the system.

                          Control: A review of manual entries should consider the
                          internal controls over the data processing to ensure data integrity
                          and the consistency of such entries with system requirements and
                          business rules.

Verifying that edits      Description: At times, during data conversion and loading,
function as designed      some edits may need to be turned off or not implemented so that
                          the data conversion process can occur within a reasonable time
                          frame. Any conversion methodology that requires bypassing
                          system processes designed to perform data edit and validation
                          must be given careful consideration. If data edits are turned off,
                          only cleaned and tested data that meet all business rules and
                          requirements should be processed in this environment.

                          Control: All transactions, whether entered manually or through
                          an automated process, should be subjected to the same edit and
                          validation procedures applied to any transaction.




                                               6
Recommendation

With less than 5 months until the planned deployment of the NFE system, the NFE project team
needs to ensure that post-installation tasks and related controls necessary for transition to the new
system are adequately planned. Accordingly, we recommend that the Director, DOF:

Develop a plan or modify existing plans for the NFE system implementation to address post-
installation tasks and related controls, including policies, procedures, and assignment of
responsibility and accountability.


CORPORATION COMMENTS AND OIG EVALUATION

The Director, DOF, provided a written response on February 1, 2005 to the draft of this report. The
response is presented, in its entirety, in Appendix III of this report.

DOF agreed with our recommendation and intends to expand NFE project planning to address post-
installation tasks and related controls by March 31, 2005. Management’s proposed actions are
sufficient to resolve the recommendation. However, the recommendation will remain
undispositioned and open for reporting purposes until we have determined that the agreed-to
corrective actions have been completed and are effective. Appendix IV presents a summary of
DOF’s response to our recommendation.




                                                   7
                                                                                 APPENDIX I




                      OBJECTIVE, SCOPE, AND METHODOLOGY

Objective
The objective of this audit was to determine whether the FDIC has established adequate
management controls over the re-baselined NFE project. Specifically, we reviewed the FDIC’s
controls over the project scope, schedule, cost, and quality and risk management practices.
Scope and Methodology
To accomplish our audit objective, we interviewed officials in Headquarters, DOF; the Division of
Information Resources Management (DIRM); and the Office of Enterprise Risk Management
(OERM), who are responsible for managing and implementing the NFE project. To become
familiar with Accenture’s control processes for managing and implementing the project, we spoke
with representatives of Accenture, the consulting firm hired by the FDIC to provide implementation
services for the NFE. Further, we attended NFE Steering Committee meetings and selected project
briefings to observe certain aspects of the NFE control framework. We also reviewed key
documents related to the NFE control framework, including the project plan, Transition Plan, Data
Conversion Approach and Plan, quality management plan, risk management and mitigation plans,
communication plan, deliverables schedule, the FDIC’s Board of Directors case authorizing
contract expenditure authority for the NFE, and relevant corporate correspondence.
The scope of our audit was limited to determining whether the FDIC had established a project
control framework for the re-baselined NFE project.
Criteria
We relied on the JFMIP White Paper, Financial Systems Data Conversion Considerations, dated
December 2002, and the PMI's PMBOK® Guide as the primary criteria for determining whether the
FDIC had established a project control framework for the NFE.

The JFMIP White Paper supplements the JFMIP Framework for Federal Financial Management
Systems regarding transitioning to a new financial management system. The guidance is intended to
raise awareness of financial systems data conversion considerations that are to be addressed by
financial management executives and project managers when planning or implementing a new
financial management system. The guidance provides pre-conversion, cutover, and post-installation
guidance to cover each phase of the data conversion process.

PMI has conducted extensive research and analysis in the field of project management and
published the PMBOK® Guide in 2000. The PMBOK® Guide documents proven practices, tools,
and techniques that have become generally accepted in the field of project management, including
information systems development and implementation. The PMBOK® Guide is an approved
standard of both the American National Standards Institute and the Institute of Electrical and
Electronics Engineers.




                                               8
                                                                                 APPENDIX I




Prior Audit Coverage

Prior to this audit, we issued the following reports related to the NFE.

   •   Audit Report No. 03-045 entitled, New Financial Environment Scope Management
       Controls, dated September 29, 2003, which addressed whether the FDIC had implemented
       adequate controls for ensuring that the scope of the NFE project was effectively managed.

   •   Audit Report No. 03-016 entitled, The New Financial Environment Project Control
       Framework, dated March 5, 2003, which addressed whether the FDIC had established a
       control framework for the NFE project.

   •   Audit Report No. 03-002 entitled, Preaward Review of the New Financial Environment
       Project, dated October 7, 2002, which provided observations on selected procedures and
       documents related to the NFE Request for Proposal.

   •   Evaluation Report No. 01-004 entitled, The New Financial Environment Project, dated
       December 7, 2001, which assessed the reasonableness of the NFE cost-benefit analysis and
       the financial systems architecture.

We conducted our audit work in Washington, D.C., and Dallas, Texas, from June 2004 through
November 2004. We conducted our audit in accordance with generally accepted government
auditing standards.




                                                 9
                                                                           APPENDIX II




                   PROJECT MANAGEMENT CONTROLS
Project Controls     Description
Oversight           The NFE Principals group and NFE Steering Committee provide
                    oversight to ensure the successful completion of the project. The
                    NFE Principals group, composed of the Chief Financial Officer
                    (CFO) and the directors of the divisions most affected by the NFE,
                    keeps senior FDIC management informed of the project’s
                    progress. The NFE Steering Committee's purpose is to oversee
                    the planning, development, and successful implementation of the
                    core financial system. The Steering Committee meets every
                    2 weeks to discuss issues and receives progress reports from FDIC
                    and Accenture NFE project managers.

Risk Management     The Director, OERM, is the risk manager responsible for ensuring
                    that risks are closely monitored and controlled. The risk manager
                    reports monthly to the CFO; Director, DOF; and NFE Steering
                    Committee on indications that a significant risk event may occur.
                    The Director, OERM, is charged with ensuring that the project
                    team develops risk mitigation and contingency plans.

Organization        NFE management consists of two FDIC project managers who
                    run the day-to-day technical, business, systems, and other aspects
                    of the project. The NFE management team holds numerous
                    regular meetings with various individuals involved in the NFE
                    project. The NFE management team explained that these
                    meetings served to keep the team members informed of the
                    current status and involved in addressing issues as they arise.

Quality             The Corporate Quality Management Staff, DIRM, is conducting a
                    series of independent testing of the NFE core financial system and
                    the system interfaces.

Schedule            The NFE management team uses the System Integration Testing
                    (SIT) Metrics Dashboard and the Interface Dashboard to track the
                    project’s progress during the testing phase. The SIT Metrics
                    Dashboard displays the overall project indicators and lists the key
                    SIT dates, major accomplishments in the current period, and open
                    issues along with their impacts and the mitigating actions for each.
                    The Interface Dashboard shows the current status of each
                    interfacing system and the target dates for each step of the testing.




                                       10
Appendix III
                                                                                                                                            APPENDIX IV




                                         MANAGEMENT RESPONSE TO THE RECOMMENDATION

This table presents the management response on the recommendation in our report and the status of the recommendation as of the date
of report issuance.
                                                                                                                                          Open
                                                             Expected               Monetary     Resolved:a     Dispositioned:b            or
 Corrective Action on the Recommendation:                 Completion Date           Benefits     Yes or No        Yes or No              Closedc
           Taken or Planned/Status
DOF agreed to a expand NFE project planning to              March 31, 2005                          Yes                No                 Open
further address post-installation tasks and related
controls.
a
    Resolved – (1) Management concurs with the recommendation, and the planned corrective action is consistent with the recommendation.
              (2) Management does not concur with the recommendation, but planned alternative action is acceptable to the OIG.
              (3) Management agrees to the OIG monetary benefits, or a different amount, or no ($0) amount. Monetary benefits are considered resolved as long as
                   management provides an amount.
b
  Dispositioned – The agreed-upon corrective action must be implemented, determined to be effective, and the actual amounts of monetary benefits achieved through
implementation identified. The OIG is responsible for determining whether the documentation provided by management is adequate to disposition the
recommendation.
c
    Once the OIG dispositions the recommendation, it can then be closed.




                                                                               12
